COCKLE

2311 Douglas Street A E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B tm cfs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No, 20-1334

BRADLEY BOARDMAN, et al.,
Petitioners,
Vv.
JAY INSLEE,
Governor of Washington, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), | certify that the BRIEF OF AMICUS
CURIAE MACKINAC CENTER FOR PUBLIC POLICY IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 2508 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 23rd day of April, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

A eer A eer ROTARY-State of Nebraska / be daar & Ch by
RENEE J. GOSS: *

Wy Comm, Exp, September 8, 2023
Notary Public Affiant 40901

 
